No. 19-

SuPre

D£C t

3fn tfje

Supreme Court of tfje ?Hmteb States;
PHILIPPE BUHANNIC,
Petitioner,
v.

NEW YORK SOUTHERN DISTRICT FEDERAL COURT,
Respondent.

On Petition for an Extraordinary Writ of Certiorari
to the United States District Court
for the Southern District of New York
PETITION FOR EXTRAORDINARY
WRIT OF MANDAMUS

Philippe Buhannic
Petitioner Pro Se
Aventura 318
Route des Creux 100
1936 Verbier Switzerland
(917) 716-3542

December 13,2019
SUPREME COURT PRESS

♦

(888)958-5705

♦

Boston, Massachusetts

^£!££of

3 20J9

1

QUESTION PRESENTED
Whether the Federal court has the right based
on an obvious prejudice and bias to refuse due process
to a foreign pro se litigant. The denial is so obvious,
persistent and omnipresent in this case that this court
must correct this quickly to have still a meaningful
constitution as the rights denied to the foreign pro se
litigant are constitutional in nature: due process,
right to appeal, etc.?

11

LIST OF PROCEEDINGS BELOW
Proceedings in the Southern District of New York
Buhannic v.
American Arbitrage Association (AAA) et al.
Case No: l:18-cv-02430-ER
Case Opening Date: March 19, 2018
Decision Date: September 27, 2019
Buhannic et al. v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-05371
Case Opening Date: June 14, 2018
Decision Date: September 27, 2019
Buhannic et al. v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-05372-ER
Case Opening Date: June 14, 2018
Decision Date: September 27, 2019
Buhannic v. Friedman
Case No: l:18-cv-05729-RA
Case Opening Date: June 25, 2018
Decision Date: February 7, 2019
Buhannic et al v. Tradingscreen Inc. et al
New York Southern District Court
Case No: l:17-cv-07993-ER
Case Opened: October 17, 2017
Decision Date: July 27, 2018

Ill

Buhannic et al v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-07997-ER
Case Opening Date: August 31, 2018
Decision Date: September 27, 2019

Buhannic v. Tradingscreen Inc.
New York Southern District Court
Case No: l:18-cv-09351-ER
Case Opening Date: October 12, 2018
Decision Date: No Decision
Buhannic v. Tradingscreen, Inc. et al.
New York Southern District Court
Case No: l:18-cv-09447-ER
Case Opening Date: October 16, 2018
Decision Date: September 27, 2019
Buhannic v. Tradingscreen, Inc. et al.
New York Southern District Court
Case No: l:18-cv-10170-ER
Case Opening Date: November 1, 2018
Decision Date: September 27, 2019

IV

Related Proceedings in the United States Court
of Appeals for the Second Circuit
Buhannic v. Friedman
United States Court of Appeals for the Second Circuit
No. 19-365
Decision Date: August 1, 2019
Buhannic v. Tradingscreen Inc.
United States Court of Appeals for the Second Circuit
No. 19-531
Decision Date: April 23, 2019
Buhannic v. Tradingscreen Inc.
No. 18-2274
United States Court of Appeals for the Second Circuit
Decision Date: October 11, 2019

V

TABLE OF CONTENTS
Page
QUESTION PRESENTED......... .

1

LIST OF PROCEEDINGS BELOW

11

TABLE OF AUTHORITIES...........

IX

OPINIONS BELOW........ ...............

1

JURISDICTION................................

2

CONSTITUTIONAL PROVISIONS

2

RULE 20 STATEMENT..................

3

STATEMENT OF THE CASE.........
STATEMENT OF FACTS............

5

ARGUMENT.............. .................. .

8

Point I. The Federal Judge, Despite an Easy
Case Structure Has Refused in One
Year to Take Any Decisions.......................

6

8

Point II. The Judge Has Colluded with the
Defendants.............. ......................... 10
Point III. The Federal Court Is Trying
Systematically to Push Back the Cases
to the State Court...................................... 12
Point IV. The Federal Court Has Funda­
mentally Refused the Right to Appeal .... 15
REASONS FOR GRANTING THE WRIT

16

CONCLUSION....... .............................

20

VI

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
APPENDIX A.
Denial of Appeal on Discrimination

la

Order of the Second Circuit Dismissing Appeal
(August 1, 2019)........................................ ............ 2a
Judgment of the District Court of New York
(September 27, 2019)....................... .............. .

4a

Summary Order of the Second Circuit
(October 11, 2019)...................... ............

8a

APPENDIX B.
Denial of Discrimination Trial Illegally
Opinion and Order of the District Court
of New York (February 7, 2019)............ .

11a

12 a

APPENDIX C.
Links to Edgardo Ramos and Michael
Bloomberg..................... ........ .................

27a

APPENDIX D.
Summary of Trials Front of Federal Court

29a

APPENDIX E.
Letter from Phillippe Buhannic to
Judge Ramos to Speed Process.....

33a

Vll

TABLE OF CONTENTS - Continued
Page
APPENDIX F.
Notice of Request to Expedite Motion

39a

Notice of Request to Expedite Motion
(April 8, 2019).................... ................ ....

40a

APPENDIX G.
Federal Appeal Court Refusal
to Handle Appeal............. ..........

44a

Federal Appeal Court Refusal to Handle
Appeal: Local Rule 34.1(b) Notice of the Court’s
Intent to Hear the Following Appeal on Sub­
mission (August 5, 2019)..................... ............... 45a
Federal Appeal Court Refusal to Handle
Appeal: Local Rule 34.1(b) Notice of the Court’s
Intent to Hear the Following Appeal on Sub­
mission (August 5, 2019).................................. 46a
Oral Argument Statement
(Local Rule 34.1(a)) (July 9, 2019)

47a

Order of the Second Circuit
(May 17, 2019)......................

50a

Order of the Second Circuit
(August 12, 2019)................

52a

Order of the Second Circuit
(June 5, 2019).......................

53a

Vlll

TABLE OF CONTENTS - Continued
Page
Notice of Defective Filing
(May 14, 2019).................

54a

Oral Argument Statement
(February 3, 2019).... ...... ....... .

56a

Scheduling Notification
(February 5, 2019).....................

58a

Notice of Case Defective Filing
(May 21, 2019)............................

59 a

Notice of Case Manager Change
(August 1, 2019)................... .......

61a

Order of the Second Circuit
(August 1, 2019) ...................

62a

IX

TABLE OF AUTHORITIES
Page
CASES
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 313 (1950)
Carey v. Piphus,
435 U.S. 247, 259 (1978)
Mathews v. Eldridge,
424 U.S. 319, 344 (1976)
Fuentes v. Shevin,
407 U.S. 67, 81 (1972)
Carey v. Piphus,
435 U.S. 247, 266-67 (1978)
Marshall v. Jerrico, Inc.,
446 U.S. 238, 242 (1980)
Nelson v. Adams,
529 U.S. 460 (2000)
Richards v. Jefferson County,
517 U.S. 793 (1996)
Jones v. Flowers,
547 U.S. 220, 235 (2006)
Goldberg v. Kelly,
397 U.S. 254, 267-68 (1970)
Armstrong v. Manzo,
380 U.S. 545, 550 (1965)
Robinson v. Hanrahan,
409 U.S. 38 (1974)
Greene v. Lindsey,
456 U.S. 444 (1982)

X

TABLE OF AUTHORITIES—Continued
Page
City of West Covina v. Perkins,
525 U.S. 234 (1999)
Baldwin v. Hale,
68 U.S. (1 Wall.) 223, 233 (1863)
Fuentes v. Shevin,
407 U.S. 67, 80-81 (1972)
Anti-Fascist Refugee Committee v. McGrath,
341 U.S. 123, 170-71 (1951)
Armstrong v. Manzo,
380 U.S. 545, 552 (1965)
Turney v. Ohio,
273 U.S. 510 (1927));
In re Murchison,
349 U.S. 133 (1955)]
Goldberg v. Kelly,
397 U.S. 254, 271 (1970)
Marshall v. Jerrico,
446 U.S. 238, 242 (1980)
Schweiker v. McClure,
456 U.S. 188, 195 (1982)
Gibson v. Berryhill,
411 U.S. 564 (1973)
Wong Yang Sung v. McGrath,
339 U.S. 33 (1950)
Schweiker v. McClure,
456 U.S. 188, 195 (1982)

XI

TABLE OF AUTHORITIES—Continued
Page
Withro w v. Larkin,
421 U.S. 35, 47 (1975)
United States v. Morgan,
313 U.S. 409, 421 (1941)
Withrow v. Larkin,
421 U.S. 35 (1975)
Marshall v. Jerrico,
446 U.S. 238, 248-50 (1980)
Hortonville Joint School Dist. v. Hortonville
Educ. Ass’n, 426 U.S. 482 (1976)
Arnett v. Kennedy,
416 U.S. 134, 170 n.5 (1974)
556 U.S.

., No. 08—22, slip op. at 6 (2009)

., No. 08-22, slip op. at 6, quoting
556 U.S.
Turney v. Ohio, 273 U.S. 510, 523 (1927).
556 U.S.

., No. 08—22, slip op. at 6

556 U.S.

., No. 08—22, slip op, at 7, 9.

556 U.S.

., No. 08—22, slip op. at 11

556 U.S.

., No. 08-22, slip op. at 15.

556 U.S.

., No. 08—22, slip op. at 14.

579 U.S.

., No. 15-5040, slip op. at 1 (2016)

Greene v. McElroy,
360 U.S. 474, 496-97 (1959)
Richardson v. Perales,
402 U.S. 389 (1971)

Xll

TABLE OF AUTHORITIES—Continued
Page
Mathews v. Eldridge,
424 U.S. 319, 343-45 (1976)
Goldberg v. Kelly,
397 U.S. 254, 270 (1970).
Lassiter v. Department of Social Services,
Gagnon v. Scarpelli, 411 U.S. 778 (1973)
CONSTITUTIONAL PROVISIONS
U.S. Const., amend. XIV, § 1..........

2

STATUTES
28 U.S.C. § 1257(a)

1

1

wm<sOPINIONS BELOW
Petitioner seeks an extraordinary writ of manda­
mus pertaining to the following cases in United
States District Court for the District Court of New
York (App.4a, 12a):
Buhannic v.
American Arbitrage Association (AAA) et al.
Case No: l:18-cv-02430-ER
Buhannic et al. v. Tradingscreen Inc. et al.
Case No: l:18-cv-05371
Buhannic et al. v. Tradingscreen Inc. et al.
Case No: l:18-cv-05372-ER
Buhannic v. Friedman
Case No: l:18-cv-05729-RA
Buhannic et al v. Tradingscreen Inc. et al
Case No: l:17-cv-07993-ER
Buhannic et al v. Tradingscreen Inc. et al.
Case No: l:18-cv-07997-ER
Buhannic v. Tradingscreen Inc.
Case No: l:18-cv-09351-ER
Buhannic v. Tradingscreen, Inc. et al.
Case No: l:18-cv-09447-ER
Buhannic v. Tradingscreen, Inc. et al.
Case No: l:18-cv-10170-ER

2

JURISDICTION
This case has clearly breached the rights of Mr.
Buhannic under the 5th and the 14th amendment of the
US constitution and numerous other parts of the US
constitution and rules of justice. Mr. Buhannic has
fundamentally been stolen his property of north of
60% of the company he created through a mixture of
outright corruption in Delaware where the judge was
bought out, collusion in the Supreme court of New
York and New York appeal court and exposed to a
significant discrimination as a foreign national and
Pro se person and massive due process issues under
Delaware, New York but also sadly the Federal court
system in New York in a way that effectively is
breaching his right to be protected by due process
against these acts.
This Petition for Extraordinary Writ of Mandamus
is filed pursuant to Sup. Ct. R. 20.4(a). This Court has
jurisdiction under 28 U.S.C. § 1651.

CONSTITUTIONAL PROVISIONS
U.S. Const., amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor

3

shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

RULE 20 STATEMENT
A.

Name and Function of Parties to Whom
Mandamus is Sought to be Directed

Petitioner seeks mandamus issued to Judge Edgardo Ramos, United States District Court for the
Southern District of New York (“Southern District”).
B.

Petitioner seek the following relief:

For the reasons to follow Mr. Buhannic respect­
fully requests that this Court grant the relief requested,
based on the US Constitution to reestablish an envi­
ronment where due process exist and is not entirely
denied to foreign pro se litigant as it has been in
this case, declare that these courts have breached
Mr. Buhannic constitutional right to due process and
appeal and to:
1.

The recusal of Judge Ramos from the case
and a concentration of all actions linked to
this case of outright theft front of the rele­
vant court in Federal court but outside of
the Southern district that has demonstrated a
level of inefficiency and collusion unmatched
in modern time with a really independent
judge that can handle a case rapidly.

4

2.

Allow the plaintiffs a change of court to
another Federal court, for all the cases,
given the full Diversity scenario away from
the manipulations of the State courts and
the total inefficiency of the current New
York Federal court Southern district. This
centralization of all actions into the relevant
jurisdiction the Federal court and away from
the current inefficient court would go a long
way, given the heavy breaches of due process,
to reestablish a certain level of fairness in
the system and credibility in the process.

3.

To allow the Plaintiffs to file the discrimi­
nation lawsuit against justice Friedman as
organized by law and refused illegally by
the Federal appeal court on no basis but
outright collusion.

4.

To allow the Plaintiffs to exercise their appeal
right for all the cases that were manipulated
by the clerk office of the New York Southern
district and where he was denied his appeal
right.

5.

Any further relief that the Court might deem
appropriate as the Court deems just and
proper.

Given the multiple due process breaches and the
systematic refusal to apply the law and the US Con­
stitution, the petition for a writ of certiorari should be
granted.

5
C.

Why Petitioners Have Filed for Relief in This Court

Petitioners have sought remedy in the United
States Court of Appeals for the Second Circuit. See 2nd
Circuit Docket Nos. 19-365, 19-531, 18-2274. The only
remaining court of higher authority is the Supreme
Court of the United States.

STATEMENT OF THE CASE
Preliminary Statement
This is a straightforward case. Philippe Buhannic
(“Buhannic”) seeks to enforce his constitutional rights
of due process protected by the constitution that have
been denied to him in the most horrible manner by a
series of courts whose bias and prejudice is so deeply
rooted in the system that they have breached the
constitutional right of Mr. Buhannic as a foreign Pro
se litigant as they consider wrongly that the constitution
does not protect him
Worse the actors of this farce feel so certain that
they are unreachable that they are going extremely
far in the illegality and of their manipulative actions,
and fear nothing from a system that they feel they
master and can play against a foreign pro se litigant
with no resource as the system is more interested in
protecting its own faulty members than achieving
justice. This is the ultimate in bad faith and insulting
to intelligence and the principles of the US Constitution.
It demonstrates that the system allows the actors
to refuse effectively due process by hiding their
sometimes-criminal acts committed by the Defendants

6

behind the most stupid presentation reasons, or just
to ignore the rules as demonstrated in examples
outlined in this case
Worse the litigant has also experienced massive
corruption of the system in the benefit of the big corrupt
law firms Morgan Lewis and Weil Gotschal which
have established in the courts a network of dependent
employees that will effectively guide the cases their
way or in the case of the Chancery court in Delaware
and New York supreme court, two courts where favors
can be purchased from by sending bitcoins to the
judge or giving tickets of sporting events to the
clerks.
This case is a terrible eyesore on the US legal
system and demonstrate a total lack of principles and
legal respect by all the actors of the US legal system
from lawyers to judges to clerks.

STATEMENT OF FACTS
From 1999 until his wrongful termination in late
June 2016, in a coup organized by the minority Private
Equity shareholder TCV with 18% of the shareholding
to steal the value of the company unduly, Mr. Buhannic
served as the Company’s CEO and Chairman of its
Board for 16 years, company that he created from
scratch making tremendous personal sacrifices to create
the leader in the Fintech space with his ingenuity,
hard work and money worth at the top 650 M USD, now
worth 0.
Thanks to the corrupt Judge Laster in Delaware
he was illegally taken off as CEO and president and

7

chairman of the Board and denied illegally his rights
as the largest shareholders to elect his representation
and control the company. This criminal decision as it
was “purchased” has allowed the TCV thieves to
effectively buy the Board members that the Plaintiffs
wanted to replace and to control the company with
18% of the shareholding illegally and to wreck the
company to oblivion. Worse the TCV thieves have
manipulated a totally corrupt system, where everything
can be purchased, through corrupt big law firms Weil
Gotschal and Morgan Lewis and to deny due process
to the Plaintiffs in so many ways that it should be a
benchmark case.
He is still a Board member today and is getting
diluted to oblivion thanks to the efforts of the colluded
and corrupt judges.
Generally, due process guarantees the following
(this list is not exhaustive):
• Right to a fair and public trial conducted in a
competent manner
• Right to be present at the trial
• Right to an impartial jury
• Right to be heard in one’s own defense
• Laws must be written so that a reasonable
person can understand what criminal behavior
is

• Taxes may only be taken for public purposes
• Property may be taken by the government only
for public purposes
• Owners of taken property must be fairly
compensated

8
Thus, in this complaint, Mr. Buhannic seeks a
correction of all the massive due process issues he
has face and given the total lack of action and decisions
that represent very serious due process failings, to move
the case to a better Federal jurisdiction more inde­
pendent and a less conflicted judge. This would go a
long way towards reestablishing a level of coherence
in the system that has proved to be prone to corrup­
tion at all levels and has denied clearly constitutional
rights of the Plaintiffs and allowed the thieves at TCV
to commit multiple criminal acts without any restraint
as the big corrupt law firms they use, “own” the system.

ARGUMENT
Due Process Issues at the Federal Court
Point I. The Federal Judge, Despite an Easy Case
Structure Has Refused in One Year to Take

Any Decisions.
The federal judge, despite the cases being organ­
ized for speed, has refused in one year to take any
decisions putting the Plaintiffs interests in jeopardy
even on obvious matters
Part of due process in any justice system is to
have decisions taken depending of their complexity
in due time. In this case the Federal court through
judge Edgar Ramos, who was heavily conflicted and
should have recused himself, decided to never take a
decision despite the obvious and documented urgency
of the situation. Despite request for urgent decisions
he never moved a finger and just let the case rot.

9

Decisions that take an average of one to three days in
any jurisdiction were voluntarily delayed for months
by the court to serve partisan interests. The federal
case was voluntarily organized by the Plaintiffs for
speed by creating actions with one single subject and
with an obvious way to decide and a very deep
documentation given at the inception. Judge Edgar
Ramos decided to block all proceedings and after more
than one year, not a single decision on for instance
obtaining corporate documents as a Board member, an
obvious need to discharge their fiduciary duties, have
been taken, to disadvantage the Plaintiffs on purpose.
Decisions on employment matters that are extremely
simple and in EVERY jurisdiction in the world are
because they impact people on a fast track, have been
voluntarily ignored and not even analyzed by a trial
judge that is trying to put the Plaintiffs into an
unacceptable situation and hurt them.
Fundamentally the Federal court despite its
obvious full responsibility, given the full diversity,
has refused to hear the case and is trying to protect
Michael Bloomberg interest by not riding and not doing
anything. We show in Appendix C (App.27a) some of
the links that exist between judge Ramos and Michael
Bloomberg that were undeclared. These links should
have guaranteed a recusal of judge Ramos.
The Federal court and its appeal court have
breached their due process responsibilities in so many
ways that it will become the example of what not to
do in Federal court. The level of collusion of the court
with partisan interests is unmatched in modern times.
The denial of due process by refusing accelerated
action when logically requested was constant by Judge

10

Ramos. Given the complete lack of progress on any
items even the cases that could be ruled in 2 minutes
by a newly nominated judge like access to corporate
documents as a Board member based on Delaware law,
the Plaintiffs acted and requested accelerated action
as shown in Appendix F. (App.39a). No answer was
even given to their action in a flagrant denial of due
process and to support their total collusion with the
defendants. In one-year Judge Ramos never answered
a letter, never answered an accelerated action request,
has not moved the case in any way and has mostly
stopped the case in the interests of his patron. A
sham of a justice system especially in areas that are
either very simple: documents production or essential
and urgent like board members nomination and
employment issues. Judge Ramos is fundamentally
colluding with the Defendants for reasons that are
very interesting.

Point II. The Judge Has Colluded with the
Defendants.
Judge Ramos has very deep relationship estab­
lished with Michael Bloomberg who is a party in this
case as he used his news agency to create a fake news
against Mr. Buhannic. Mr. Buhannic was Bloomberg
biggest client at Credit Suisse and also his biggest
competitor later at TradingScreen and has been pro­
hibited to rent a Bloomberg terminal since he created
TradingScreen. A significant anti-competitive practice.
Bloomberg wanted to give him a terminal only after
receiving a copy of his business plan! Mr. Buhannic
refused to comply and has been prohibited to have a
terminal since 2000 for 19 years as he was always
considered by Michael Bloomberg as one of his only

11

valid competitors. Judge Ramos should have recused
himself in a normal due process to avoid conflict
with his friendship with Michael Bloomberg (https://
wwwl.nyc.gov/office-of-the-mayor/news/230-03/mayormichael-bloomberg-appoints-new-chairperson-five-newmembers-the-commission-to, etc.). Instead he has
decided to stay on the case and to stop any resolution
even the most trivial ones that requires 15 minutes
of his attention like the information demand or the
employment claims of Mr. Buhannic.
In Appendix D (App.29a) we have summarized
the case subject, the date it started and the status and
the level of complexity. The reading is a frightening
look at the collusion of Federal court through inaction
with the Defendants, allowing them to destroy and
steal the company the Plaintiffs created with huge
efforts and sacrifices.
Mr. Buhannic made multiple attempts to speed
up the process, as shown in Appendix F (App.39a),
especially on simple issues that were all ignored
completely by Judge Ramos. See Appendix C (App.27a)
for some examples of the delays despite some issues
being extremely simple.
Fundamentally he has prohibited any resolution to
satisfy his friendship with Mr. Bloomberg. He has
breached due process in terms of efficiency, by hiding
his conflict, by colluding with the Defendants and
allowing them to strip the company of any value. The
denial of due process by hiding conflict of interests is
patent and is unacceptable here.

12

Point III. The Federal Court Is Trying Systemati­
cally to Push Back the Cases to the State
Court.
Given the full diversity of this case, the Federal
court should be the forum. It is only the manipulations
of the Plaintiffs lawyers, despite clear instructions to
be front of the Federal court, that did put them front
of the state court.
Refusal to take the very solid discrimination case.
The federal court is the forum for subjects that
are constitutional and for cases with full diversity.
Despite obvious and proven full Diversity the court is
trying desperately to help the defendants to push
back the cases to the state court, where they own the
court, in clear breach of due process and diversity
rules.
In the worst example of collusion, the Federal
Court Southern district terminated the case with no
valid reason despite stunningly strong proof of the
discrimination and the bias the Plaintiffs had to
endure and also multiple proofs of the manipulation
by justice Friedman of the transcripts, the ex-parte
communication with the Defendants, her goal to starve
the resources of the Plaintiffs and multiple other
unacceptable practices for a judge. The Federal court
has decided to not defend a foreigner pro se like they
would an American citizen in clear breach of fairness
and due process. The system is effectively protecting
the criminal acts of the system.
As shown in Appendix A (App.la) and Appendix B
(App.lla) the Federal court at the appeal level is refus­
ing to rule on a very clear case of bias and discrim-

13

ination with extremely heavy proofs that is a Federal
area of responsibility.
The New York court has been demonstrating a
complete bias and discrimination, bordering on insult­
ing the Plaintiffs, in multiple well proven instances
against the national origin of the plaintiffs and the
pro se status they were forced into by the New York
court colluding heavily with the Defendants corrupt
law firms Weil Gotschal and Morgan Lewis. Therefore
an action in discrimination was started at the Federal
court. The Southern district seems to be more preoc­
cupied to limit the work and the number of cases
and refused to hear the case in a flagrant denial of
due process by Judge Ronnie Abrams. The plaintiffs
appealed immediately and the clerk of the Federal
court continue on its tradition on making impossible
to appeal has created issues after issues, all complete
bullshit, to prohibit this appeal to go through, by
leveraging format presentation and menial points, to
deny the constitutional right to appeal of the plaintiffs.
For them forging transcripts, maintaining different
treatments for indemnification, having ex-parte commu­
nication, etc. are not a serious base for discrimination
on top of prohibiting the pro se to speak and insulting
him and frightening all his interns into resigning. The
Federal is on top of its subject in discrimination.
Despite the blatant discrimination against national
origin and pro se status demonstrated by justice Fried­
man, on top of systematic doctoring of the transcripts
and unacceptable double treatment between parties and
ex-parte communication with the Defendants, not once
but systematically. Worse the same judge has applied
the law for the legal expenses indemnification differ-

14
ently between the two parties based on the same case
and the same agreement to disadvantage the Plaintiffs
and feed her complete collusion. The same judge
prohibited the Plaintiffs a foreign pro se litigant to
even present his case as reflected by the manipulated
transcripts and allowed the Defendants lawyers she
is colluding with to talk for hours on non-sense. We will
pass on the insults and clear and obvious discrimina­
tion demonstrated during the sessions but manipulated
in the transcripts as always by the judge, destroying
evidence and supporting her collusion. Clearly there
is no base for this action! This is normal justice at
work in New York.
Based on the fact that the Plaintiffs are successful
people, the Federal Appeal court has made also impos­
sible to hear a case of discrimination in a clear attempt
to protect the system from its failings and justice
Friedman’s from her unacceptable sometimes criminal
behavior. Not only a lousy Federal judge rejected the
case which was perfectly documented but the clerk
office has prohibited the appeal on the lousy decision of
the lousy judge, most likely a friend of justice Friedman
trying to protect her from her own unacceptable
behavior. Still today after multiple fixes to an appeal
file that was totally compliant but that the clerk office
in a drive to protect the system has created one more
ridiculous rule than another to effectively prohibit a
foreigner to proceed. This is a very bad reading of the
US constitution as the clerk office and the judges in
the federal court southern district have decided in a
flagrant breach of due process that foreigners have
no rights at all and that the big corrupt law firms
rule the show. This is an unacceptable reading of the
US constitution and of the intent of the founding

15
fathers in a system that has gone totally awry and
is prone to corruption, collusion and breaches to due
process routinely as no discipline exist for judges or
lawyers at all.
In Appendix G (App.44a) we show the unaccept­
able behavior of the clerk office whereby the plaintiffs
left the US every time with a resolution accepted by
the clerk of all issues and the clerk chief Catherine
O’Hagan Wolfe re-created issues while the Plaintiffs
were in Europe to block again the process of appeal
every time. Worse they never informed the Plaintiffs
with due service, to put him at a disadvantage like in
the discrimination case for instance, to prohibit a
higher appeal on purpose.
These actions are coordinated and as well as the
refusal of judges to hear cases on diversity or cases
on discrimination in a flagrant breach of justice and
in a voluntarily organized scheme to “take advantage”
of the foreigner in favor of big corrupt law firms.
Point IV. The Federal Court Has Fundamentally

Refused the Right to Appeal.
The Federal court has combined its effort to on
one hand do nothing in one year in the cases front of
the court with Judge Edgar Ramos, to prohibit the
Plaintiffs to have cases on discrimination and other
federal subject in a clear collusion with the Defendants
that should be investigated, and leveraging the Federal
appeal court to make all the appeals fail despite multi­
ple fixes that were every time accepted and declared
final by the clerks. The federal court has fundamen­
tally refused the right to appeal by manipulating the
formatting of the appeal to make it impossible for the

16

Plaintiffs that live outside of the US to effectively get
an appeal in place.
Each and every time the chief clerk invented new
issues to make it impossible for a foreigner pro se,
with no presence in the US, to go through and have
his appeals proceed. The Federal court has decided to
hurt the plaintiffs in any way it can in a flagrant
denial of due process for the most idiotic reasons.
This is shown in Appendix F. (App.39a). Looking at the
reasons why appeals were denied breaching the consti­
tutional right to appeal despite once again systematic
fixing by the Plaintiffs every time they were aware of
a new rule imposed on them to make it difficult by
the chief clerk. Fundamentally the chief clerk has
denied in flagrant breach of due process the right of
appeal, protected by the constitution, of a foreigner
pro se. We guess that tickets or parties were the
payment for these services like in the New York
appeal court. Fundamentally the clerk office is paid
to deny, through minute ridiculous presentation issues
created on the fly, the appeal rights of the people
that are foreigner and pro se.

REASONS FOR GRANTING THE WRIT
The issues raised in this case are critical to the
effective functioning of the legal system of the United
States. Due process needs to be enforced and need to
be independent from who you are and as a foreign
pro se litigant you should be entitled to it as much as
a big corrupt law firm working for fees. Today between
the corruption, the nepotism and the outright bias of

17

numerous levels in the system, this is not guaranteed,
and it is critical to the wide public and the economy
that these issues are fixed in the spirit and law of the
US constitution.
There is nothing more important than to fix a
system that has been selling itself to partisan interests
and is colluding with some of the big law firms to
give them an undue power that is challenging the most
basic rules of Democracy.
This court must use this case where we have
demonstrated an inordinate bias and prejudice as well
as numerous cases of outright corruption, collusion
and numerous dysfunctions of the system that makes
it so faulty that outside of providing a good living to
the people involved, mostly lawyers, it has failed
totally the general public in rendering justice.
This court is facing a choice here: Act quickly and
fairly and demonstrate that all the manipulations stop
at its door and that it represents the last defense of
Democracy, Justice and Due process and reestablish
decisions that make sense or just let go and accept
that the system is now controlled by people that can
pay big corrupt law firms to manipulate the process
and become an accomplice of the destruction of the
legal environment created by the founding fathers.
There is no illusion here, inaction or half measures
will not change the flow of history as the system is so
biased the wrong way now, that judges feel they can
escape from the law and are writing it, lawyers feel
they can manipulate the system freely, with no con­
sequences.

18

If by outright corruption an Entrepreneur can be
stolen the property that he sacrificed so much to
develop, just because judges and courts have been
coerce into submission by money, influence and if an
entrepreneur/manager can be the victim of blackmail,
attacks and lose the ownership of his company despite
having the vast majority of the capital (70%) as in
this case because the minority Private Equity share­
holder (18%) can afford with their customers money,
expensive corrupt law firms to manipulate the corpo­
rate life of a company and steal the value created by
the entrepreneur, then nobody will want to be an
entrepreneur. Nobody will want to establish a new
business in the USA. Nobody either will want to carry
the risks attached to performing the fiduciary duties
of a Board member any more given this case as a very
solid indemnification agreement was fundamentally
applied to the Defendants and not the Plaintiffs in a
complete denial of justice. It is essential to maintain
a system where contracts that are very clear are applied
fully and cannot be manipulated by law firms playing
their cards with courts going as far as corrupting the
clerks and the judges like Weil Gotchsal and Morgan
Lewis demonstrating a corruption uncommon in the
poorest countries of the universe. It is critical to show
that people with money acquired through outright theft
cannot manipulate the system into submission through
big corrupt law firm and that to pro se litigants that
they have a chance to make their points if they are
right.
The Federal court should take unbiased decisions,
for the benefit of the wide public from pension fund
to individual investors. These decisions or non-decisions
as they were manipulated by big corrupt law firms

19

and are key to entrepreneurship protection and the
needs of the general public and threaten the future
by creating a breach into a very well documented
jurisprudence. It is essential for this court to put a
stop to the manipulation of the system by money and
greed that will kill innovation and he jobs of the
future.
This court is the last hope for justice but also
more importantly to insure that the financing of
innovation does not fall definitively in the hands of
crooks equipped with big law firms and a strong pull
in the lower courts where they managed to corrupt
the courts to a level that is uncommon anywhere in the
world, where even the simplest issues were manipu­
lated through collusion, manipulation and outright
corruption. Worse the lower courts also prohibited
the indemnitee to benefit from due process and his
appeal rights protected by the constitution. Make no
mistake here, this is a benchmark case where the
future of innovation financing will be decided that
will impact generations to come in the USA. Accepting
that these illogical and illegal decisions, going against
almost every case law existing in all jurisdictions, stay
in force will damage definitively the legal environment
at a huge cost to society and will ensure that crooks
well equipped with corrupt lawyers run the show at
the expense of the creators, entrepreneurs and value
generator. It will also tell the entrepreneurs to NEVER
create a company based in the US given the risks
involved. It is a seminal case that should be treated
by the highest court in the land to give still hope to
honest people that the dream of a better system that
started in 1776, and for which my ancestors died for

20

in Chesapeake Bay and Yorktown, still exist in some
heads, even remotely.
“The true administration of justice is the
firmest pillar ofgood Government”
George Washington

CONCLUSION
The total amount of the legal costs carried by
Mr. Buhannic is north of five million USD, all spent
for nothing, and the other side has spent a multiple
of that completely indemnified by the company for
the exact same cases and indemnification agreement,
a parody of justice and due process. It is also important
to note that these amounts were also paid by Mr.
Buhannic as he is the 70% owner of the company that
paid these fees and has been hijacked thanks to due
process breaches by a group of sophisticated thieves
leveraging big corrupt law firms.
The Federal court which main job in the Southern
district seems to be to spend 90% of its efforts refusing
cases instead of establishing a benchmark for solid
and efficient justice, has created the Plaintiffs a
number of issues to bring its cases forward that are
breaching very badly due process and establish this
court as a court where Plaintiffs can bring only cases
that the court wants to hear. The discrimination case
against justice Friedman is obvious, very well docu­
mented, despite her systematic doctoring of the trans­
cripts and manipulations and should be a “slam dunk”
to establish courts that are independent from pre-

21

judice against non-American and pro se litigants. The
need for these cases to be front of the Federal court
given the full diversity is also totally obvious but was
denied by the Federal court.
The collusion of the lower court with the Defend­
ants of justice Friedman as demonstrated heavily by
the proceedings, even despite the doctoring by the judge
itself of the transcripts, the double treatment on every
subject, and else has denied clearly due process to
Mr. Buhannic in an incredible number of cases like in
ruling on her own recusal, given her bias and collusion,
and has taken her decisions with only one intent: to
exercise her bias and prejudice against Mr. Buhannic
national origin and his status as pro se. Justice
Friedman forced him to represent himself pro se and
has manipulated the entire process through ex-parte
communications and collusion to hurt Mr. Buhannic
to apply her bias against his nationality and pro se
status. Her actions are a litany of what not to do in
terms of due process and the New York Appeal court
has decided against all logic and the law to support
her in this endeavor and has demonstrated a level of
outright corruption not common in modern times
anywhere in the world. Both courts have erred against
basic principles of justice, the constitution, the agree­
ments and have manipulated their way to try to hide
all their attempts to circumvent due process rules as
demonstrated in this filing.
What is especially unacceptable in this case is that
the court that was created by Washington to avoid
these flaws, the Federal court, has been almost worse
and has refused to assist Diversity which is its function,
and to provide a safe-haven to non-state people as

22

organized by Diversity. The collusion through non
decision is a mark of this case.
To sum up, Mr. Buhannic has been denied totally
his US constitutional rights to due process, to appeal
and to fairness by a system more interested in denying
his rights as a foreigner and protecting its members
from the consequences of their illegal and anticonstitutional acts than exercising a fair justice.
These cases that all are interlinked are a flagrant
demonstration of the due process failings of a system
that is more interested in protecting itself and feeding
lawyers than achieving a fair justice. The denial of due
process has been so pervasive, so distributed across
so many courts and judges that it is unfortunately an
innate characteristic of a system that has gone awry.
Even the court which was conceived and built to
protect nonlocal litigants has failed and has breached
almost any due process rule imaginable. These
breaches are endangering the entire system in the
US and making it a laughable stock for other justice
systems. More importantly it makes the US legal
system the place to avoid for foreigners as it is biased
and owned by expensive and corrupt law firms that
own the process through cushy jobs for judges at the
end of career, outright corruption and discreet ser­
vices rendered.
These failings and manipulations must stop in
the interest of the credibility of the US legal system to
be a major credible legal system. The level of corruption
the plaintiffs have experienced in the Delaware, New
York and the Federal courts both at the court level
and the appeal court is unmatched in their 40+ very
successful years career all over the world tackling

23

most major legal environments. The level of collusion
between the system and the big law firms is un­
matched. The complete lack of disciplinary power on
judges and lawyers leave a system prone to collusion,
payment for verdict and corruption that allows the
people participating to know that they are fundamen­
tally unreachable and not responsible front of the
law. They can do whatever they please with a total
disregard for the US constitution and the rights of
the Plaintiffs, especially as Foreigners and pro se. It
is an insult to the US constitution and breaches of
so many of the basic due process rules that it is
impossible to list all of them.
Respectfully submitted,
Philippe Buhannic
Petitioner Pro Se
Aventura 318
Route des Creux 100
1936 Verbier Switzerland
(917) 716-3542
December 13, 2019

